No. 20-8063

Jn tbe ~upreme Ql:ourt of tbe llniteb ~tate~
DARIUS THERIOT, PETITIONER

V.
BOB VASHAW, WARDEN

ON PETITION FOR A WRIT OF

CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE SIXTH CIRCUIT

PROOF OF SERVICE
The undersigned certifies that on October 13, 2021, she served the Brief in
Opposition by mailing same in an envelope bearing postage fully prepaid, plainly addressed as follows and emailing same to the email address provided:
Christopher J. McGrath
Federal Community Defender for the Eastern District of Michigan
111 East Court Street
Suite L-100
Flint, MI 48502
mcgrathtph@aol.com

